No. 20-1088

In the Supreme Court of the United States

DAVID CARSON,
as parent and next friend of O.C., et al.,

Petitioners,
ve
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,
Respondent.

CERTIFICATE OF COMPLIANCE

I, Nicholas J. Bronni, counsel for Amici Curiae, States of Arkansas, et al., hereby
certify that the Brief of Amici Curiae States of Arkansas, et al., in Support of Peti-
tioners complies with the word limits in Rule 33.1(g), because, according to the word-
processing system used to prepare the document, including footnotes but excluding

the parts exempted by Rule 33.1(d), it contains 5,893 words.

vt nL
NICHOLAS J. BRONNI

Arkansas Solicitor General
Counsel of Record

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, Arkansas 72201
(601) 682-6302
March 11, 2021 nicholas.bronni@arkansasag.gov
